     Department of Homeland Security





           FEMA Public Assistance Grant Program Funds 

             Awarded to City of Milwaukee, Wisconsin





DD-12-14                                           June 2012

June 20, 2012
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objective. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objective. We conducted this audit according to the statutes, regulations, and
   FEMA policies and guidelines in effect at the time of the disaster.

   We interviewed FEMA, WEM, and City officials; reviewed judgmentally selected project
   costs (generally based on dollar value); and performed other procedures considered
   necessary to accomplish our objective. Our audit scope included Project 2476, a
   Category F (utilities) project, because it made up about 96 percent of the total award
   ($14,796,994 of $15,440,557) and because FEMA Region V officials recommended that
   we audit the project. As of our cutoff date, the City was still working to complete
   Project 2476; therefore, our audit procedures for that project focused on eligibility and
   the estimated costs to complete it, rather than costs claimed. We also included in our
   audit scope the remaining Category F project and a cross section of the other categories
   of work: Category A (debris removal), Category B (emergency protective measures), and
   Category C (roads and bridges). We did not assess the adequacy of the City’s internal
   controls applicable to grant activities because it was not necessary to accomplish our
   audit objective. However, we did gain an understanding of the City’s methods of
   accounting for disaster-related costs and its procurement policies and procedures.


                                       RESULTS OF AUDIT

   FEMA did not deobligate excess funds authorized for Project 2476, the Menomonee
   Valley Pumping Station, which made up about 96 percent of the City’s total award
   ($14.8 million of $15.4 million). As a result, $10.9 million ($8.2 million Federal share) in
   unneeded funds remain obligated. In addition, FEMA and WEM officials did not always
   fulfill their responsibilities regarding grant management. Therefore, FEMA should
   (1) deobligate $10.9 million and put those funds to better use, and (2) take steps to
   improve its own and WEM’s grant management procedures.

   The City generally accounted for and expended FEMA grant funds according to Federal
   regulations and FEMA guidelines. The sole exception was that we questioned $12,129
   of ineligible costs, or less than 1 percent of the amount we audited.




www.oig.dhs.gov                                  2                                         DD-12-14
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Finding A: Unneeded Federal Funds

   Because FEMA did not properly account for authorized funds for Project 2476,
   $10.9 million ($8.2 million Federal share) in unneeded Federal funds remain obligated
   that FEMA should put to better use. In February 2009, WEM, as FEMA’s grantee,
   awarded the City $14.8 million for Project 2476 to repair the Menomonee Valley
   Pumping Station. However, the City decided in March 2009 to decommission the
   pumping station and reconfigure the water distribution system. This decision
   dramatically reduced the overall estimated project cost to $3.9 million. FEMA approved
   this substantially lower cost alternate project in January 2011, but after 15 months,
   FEMA has not reduced the amount obligated for the project.

   Federal appropriations laws and the Statement of Federal Financial Accounting
   Standards (SFFAS) require Federal agencies to record obligations in the accounting
   records on a factual and consistent basis throughout the government.2 The
   overrecording and the underrecording of obligations are equally improper. Both
   practices make it impossible to determine the precise status of Federal appropriations.
   When the precise amount is not known at the time that the obligation is incurred,
   agencies appropriately record an obligation based on the best estimate at the time.
   Agencies, however, must periodically adjust that obligation as more precise data on the
   liability become available. That is, the agency must increase or decrease obligated funds
   when probable and measurable information becomes known (7 Government
   Accountability Office-Policy and Procedures Manual § 3.5.D; B-300480, April 9, 2003,
   and SFFAS Number 5, paragraphs 19, 24, 25, and 29). Agencies must document both the
   initial recordings and the adjustments to recorded obligations.

   As of May 2012, FEMA had not deobligated the excess $10.9 million ($8.2 million
   Federal share). When we brought this issue to FEMA’s attention, a FEMA official told us
   that it was not FEMA’s practice to reduce project funding until all costs are known. The
   official said that even in cases like this that involve millions of dollars in excess funding,
   it is not normal FEMA procedure to reduce project funding because the original
   $14.8 million repair estimate is still relevant to FEMA in calculating the upper limit of the
   alternate project’s funding. However, deobligating the excess funding does not
   eliminate the cap for the alternate project. Further, although this approach may be
   easier, it does not justify unnecessarily committing $10.9 million ($8.2 million Federal
   share) for more than a year. This last issue is best demonstrated by the funding
   problems reported at the end of fiscal year 2011, when the Disaster Relief Fund had
   insufficient funds to respond to Hurricane Irene.

   2
    U.S. General Accounting Office’s (GAO) Principles of Federal Appropriations Law, 3rd edition, volume Il,
   February 2006, chapter 7, section B: Criteria for Recording Obligations (31 U.S.C. § 1501).


www.oig.dhs.gov                                        3                                                DD-12-14
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Reducing unneeded funding in a timely manner (1) releases funds to cover cost overruns
   on other projects associated with the disaster, (2) provides a more accurate status of
   Public Assistance program costs for a disaster, and (3) is consistent with appropriations
   law and SFFAS Number 5, which require obligations/liabilities in FEMA’s accounting
   system to be recorded accurately and supported. Therefore, FEMA should deobligate
   $10.9 million from Project 2476 and put those funds to better use. WEM and City
   officials agreed with this finding; however, FEMA disagreed. A FEMA official said that it
   is not FEMA’s normal practice to reduce funds until closeout, when the final project
   costs are known.

   Finding B: Other Grant Management Issues

   FEMA and WEM officials did not always fulfill their responsibilities regarding grant
   management. FEMA did not properly account for grant funds, nor did it properly
   monitor WEM’s grant management responsibilities to ensure compliance with Federal
   regulations, FEMA’s policies, and WEM’s Public Assistance Administrative Plan.

   According to 44 CFR 13.37(a)(2), the grantee is required to ensure that subgrantees are
   aware of requirements imposed on them by Federal regulations. Further, 44 CFR
   13.40(a) requires the grantee to manage the day-to-day operations of subgrant activity
   and monitor subgrant activity to ensure compliance with applicable Federal
   requirements.

   Grantees must also submit a quarterly progress report for each open large project
   (44 CFR 206.204(f)). Progress reports are critical to ensuring that FEMA and grantees
   have up-to-date information on Public Assistance program grants. According to FEMA’s
   Public Assistance Guide (FEMA 322, June 2007, p. 141), the progress reports should
   include the following:

       •	 The status of the project, such as “in design” or “percentage of construction
          completed”;
       •	 Time extensions granted, if any;
       •	 A projected completion date;
       •	 The amount of expenditures and amount of payment for each project; and
       •	 Any problems or circumstances that could delay the project or result in

          noncompliance with the conditions of the FEMA approval.


   WEM officials submitted quarterly reports to FEMA; however, the reports did not
   contain key information needed to monitor the grant. For example, WEM’s quarterly
   reports did not contain information on time extensions, project completion dates, the



www.oig.dhs.gov                                4	                                         DD-12-14
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   amount of costs incurred, and the amount of payments made for each project. The
   reports also did not identify any problems or circumstances that could delay the project
   or result in noncompliance. According to WEM’s Public Assistance State Administrative
   Plan, WEM provides forms to its subgrantees to report quarterly progress; however,
   WEM did not provide this form to the City. As a result, neither WEM nor FEMA
   collected sufficient information to track and monitor the progress of open projects. In
   fact, the City submitted no quarterly progress reports until after we advised City officials
   of the requirement. WEM officials told us that they have had trouble getting these
   reports from subgrantees, including the City. Nonetheless, WEM officials were
   responsible for collecting the information necessary to provide FEMA with complete and
   accurate quarterly progress reports.

   WEM also did not ensure that the City was aware of and followed Federal regulations
   regarding alternate projects. Federal regulations require grantees to obtain FEMA’s
   approval before the start of construction of any alternate project (44 CFR 206.203(d)(2)
   (v)). However, WEM knew that the City started construction on alternate Project 2476
   (see finding A) before FEMA approved it in January 2011.3 Between October 2009 and
   March 2010, long before FEMA’s approval, WEM paid the City for work performed on
   the alternate project.

   Had WEM officials properly monitored the City’s activities, they would have told City
   officials to discontinue work until FEMA either approved or denied the City’s alternate
   project request. This was especially important because FEMA could have denied not
   only the costs that the City claimed between October 2009 and January 2011, but also
   the entire project.

   It is FEMA’s responsibility to hold States accountable for proper grant administration.
   Therefore, FEMA should take steps to improve its own and WEM’s grant management
   procedures. Federal regulations establish uniform administrative rules for grants and
   procedures for Public Assistance project administration. These rules and procedures
   require that grantees and subgrantees have fiscal controls, accounting procedures, and
   project administration procedures that provide FEMA assurance that (1) grant and
   subgrant financial and project status reports are accurately reported, (2) expenditures
   can be traced to a level that ensures that funds have not been used in violation of
   applicable statutes, and (3) grantees and subgrantees adhere to the specific provisions
   of applicable Federal regulations when administering the grants. FEMA, WEM, and City
   officials agreed with this finding.

   3
    After the City provided the details for the requested alternate project, FEMA had to conduct two
   environmental reviews, one to decommission the original site of the Menomonee Valley Pumping Station
   and one for the alternate work site.


www.oig.dhs.gov                                     5                                             DD-12-14
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Finding C: Duplicate Funding

   FEMA approved $10,566 to purchase and install Supervisory Control and Data
   Acquisition (SCADA) systems and water meters for Project 2223.4 However, FEMA
   funded the same scope of work in an award to another city. This occurred because
   neither FEMA nor WEM determined which city was legally responsible for the work.
   According to 44 CFR 206.223(a)(3), to be eligible for financial assistance, an item of work
   must be the legal responsibility of an applicant. FEMA’s Public Assistance Guide (FEMA
   322, p. 23) also states that if the applicant is the lessee (tenant), repairs to that facility
   are not eligible unless the lease specifically states that the lessee is responsible for the
   repairs. In the absence of a written agreement or lease, the owner of the property, not
   the occupant, is assumed responsible for the repairs.

   The project worksheet stated that the City owned the damaged meters; however, the
   City of Wauwatosa, Wisconsin, owned the State Street Water Meter Pit facility that
   contained the meters. Because of these ownership issues, we reviewed the FEMA
   project worksheets for the City of Wauwatosa to determine whether there were
   duplications in the scope of work and approved funding. The project worksheet for the
   City of Wauwatosa also authorized repairs to the SCADA systems and water meters—
   the same SCADA systems and water meters FEMA authorized for repair in Project 2223.

   We asked the City to provide proof of its legal responsibility. City officials provided us
   with the Water Service Agreement between the City of Milwaukee and the City of
   Wauwatosa, which stated that the City of Milwaukee has legal responsibility for the
   meters along with having to install and maintain them. However, the Water Service
   Agreement also states that the City of Wauwatosa must purchase the meters from the
   City of Milwaukee at cost. Because FEMA funded the same scope of work in awards to
   both cities, we question $10,566 ($7,925 Federal share) as ineligible. In addition, FEMA
   needs to determine which city had the legal responsibility for providing and installing
   these meters. Once FEMA makes that determination, it needs to ensure that the cost of
   purchasing and installing the meters is approved only for the appropriate city. FEMA
   and City officials agreed and WEM officials generally agreed with this finding.

   Finding D: Inadequate Scope of Work

   The City claimed $1,563 in labor costs for Project 1778, an emergency protective
   measures project with an unclear scope of work. According to 44 CFR 206.202(d)(1)(i),
   “[t]he Project Worksheet must identify the eligible scope of work and must include a
   quantitative estimate for the eligible work.” Also, the FEMA Public Assistance Guide

   4
       The SCADA system allows control of the water flow and pressure.


www.oig.dhs.gov                                         6                                   DD-12-14
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   (FEMA 322, p. 101) states that the scope of work must be descriptive. However, neither
   WEM nor the City could explain what eligible work the City actually performed. The
   project worksheet stated, “Library staff provided 7.5 hours regular time and 47.0 hours
   overtime labor to provide emergency protective measures to elevate damage to
   improved property.”

   FEMA prepared the project worksheet after the City completed the work and removed
   the regular hours from the claim; however, the scope of work was not descriptive.5
   Further, the supporting time cards the City provided did not describe the work
   performed. A FEMA official said that, because this was a small project, FEMA might not
   have performed the same level of review as it would have performed on a large project.
   Because the project did not include a clear scope of work and did not accurately reflect
   the City’s claim, and because the City did not provide evidence of what work it
   performed, we question $1,563 ($1,407 Federal share) as ineligible. FEMA and City
   officials disagreed and WEM officials generally agreed with this finding. City officials
   said that FEMA prepared the project worksheet and should have asked for more
   information to clarify the scope of work. FEMA officials agreed that the project
   worksheet was not prepared well, but disagreed that this should be a finding.


                                        RECOMMENDATIONS

   We recommend that the Regional Administrator, FEMA Region V:

   Recommendation #1: Deobligate $10.9 million ($8.2 million Federal share) from Project
   2476 and put those Federal funds to better use (finding A).

   Recommendation #2: Develop and implement procedures to ensure that obligations
   are properly recorded to reflect the most accurate estimates available of funds needed
   to complete projects (finding A).

   Recommendation #3: Develop and implement procedures for all disasters that require
   grantees to submit quarterly progress reports that comply with FEMA’s Public
   Assistance Guide (FEMA 322) (finding B).

   Recommendation #4: Disallow $10,566 ($7,925 Federal share) of ineligible costs
   related to duplicate funding, and determine whether the City of Milwaukee or the City
   of Wauwatosa had legal responsibility for providing and installing the SCADA systems

   5
     According to 44 CFR 206.228(a)(4), regular-time salaries and benefits of subgrantee employees are not
   eligible for emergency work funding.


www.oig.dhs.gov                                       7                                               DD-12-14
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   and water meters at the State Street Water Meter Pit facility (Project 2223). Once
   FEMA makes that determination, it needs to ensure that the cost of purchasing and
   installing the meters is approved only for the appropriate city (finding C).

   Recommendation #5: Disallow $1,563 ($1,407 Federal share) of claimed costs for
   Project 1778 that were ineligible because the project’s scope of work was unclear
   (finding D).


                  DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

   We discussed the results of our audit with FEMA, WEM, and City officials during our
   audit and included their comments in this report, as appropriate. We also provided a
   draft report in advance to these officials and discussed it at exit conferences held on
   April 30, 2012. These officials generally agreed with our recommendations; however,
   FEMA and City officials disagreed with Recommendation #5, as discussed in finding D.

   Within 90 days of the date of this memorandum, please provide our office with a
   written response that includes your (1) agreement or disagreement, (2) corrective
   action plan, and (3) target completion date for each recommendation. Also, please
   include responsible parties and any other supporting documentation necessary to
   inform us about the current status of the recommendation. Until your response is
   received and evaluated, the recommendations will be considered open and unresolved.

   Consistent with our responsibility under the Inspector General Act, we are providing
   copies of our report to appropriate congressional committees with oversight and
   appropriation responsibility over the Department of Homeland Security. We will post
   the report on our website for public dissemination. Significant contributors to this
   report were Tonda Hadley, Moises Dugan, Christopher Dodd, Lori Smith, Cheryl Spruiell,
   and Patricia Epperly.

   Should you have questions, please call me at (202) 254-4100, or your staff may contact
   Tonda Hadley, Director, Central Regional Office, at (214) 436-5200.




www.oig.dhs.gov                                8                                        DD-12-14
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                                                                                       EXHIBIT A
                             Schedule of Projects Awarded and Audited

                                June 5, 2008, to September 16, 2011

                                   City of Milwaukee, Wisconsin

                                FEMA Disaster Number 1768-DR-WI



   Project        Category     Award        Audited      Questioned Funds Put To
   Number         of Work     Amount        Amount        Amount     Better Use         Finding

    2476             F       $14,796,994   $14,796,994       $       0   $10,900,000    A and B
    2360             A           232,545       232,545               0             0
    2267             B           209,854       209,854               0             0
    2228             C            77,323        77,323                             0
    1775             G            55,897             0            0                0
    1770             E            18,318             0            0                0
    1927             E            14,006             0            0                0
    2223             F            10,566        10,566       10,566                0       C
    1781             E             9,595             0            0                0
    2220             B             5,195         5,195            0                0
    2227             B             3,675         3,675            0                0
    1920             B             3,037         3,037            0                0
    1757             E             1,989             0            0                0
    1778             B             1,563         1,563        1,563                0       D
    Totals                   $15,440,557   $15,340,752      $12,129      $10,900,000




www.oig.dhs.gov                               9                                        DD-12-14
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


                                                                   EXHIBIT B

                                    Report Distribution List

                                City of Milwaukee, Wisconsin

                              FEMA Disaster Number 1768-DR-WI


 Department of Homeland Security

 Secretary
 Chief Financial Officer
 Under Secretary for Management
 Audit Liaison, DHS

 Federal Emergency Management Agency

 Administrator
 Chief of Staff
 Chief Financial Officer
 Chief Counsel
 Director, Risk Management and Compliance
 Audit Liaison, FEMA Region V
 Audit Liaison, FEMA (Job Code G-11-073)

 Grantee

 Administrator, Wisconsin Emergency Management

 State

 State Auditor, Wisconsin Legislative Audit Bureau

 Subgrantee

 Mayor, City of Milwaukee, Wisconsin




www.oig.dhs.gov                              10                    DD-12-14
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
